IN THE
SUPREME COURT OF THE UNITED STATES

No. 20-1735

ANGEL MARTINEZ ORTIZ-DIAZ, ET AL.,
Petitioners,
v.

UNITED STATES, ET AL.
Respondents.

On Writ of Certiorari to
the United States Court of Appeals
for the First Circuit

BRIEF OF THE SENATE OF
PUERTO RICO AS AMICUS CURIE
IN SUPPORT OF PETITIONERS

EDWIN QUINONES ANIBAL ACEVEDO VILA

COUNSEL OF RECORD COUNSEL FOR AMICUS CURIE
QUINONES, ARBONA & CANDELARIO LAW OFFICE OF ACEVEDO-VILA
Chubb Plaza, Suite 701-A 894 MUNOZ RIVERA AVE, SUITE 202
San Juan, P.R. 00922 San Juan, P.R. 00927

(787) 620-6776

(787) 200-0676

equinones@qaclaw.com acevedovilal@gmail.com
CERTIFICATION OF SERVICE
I, Edwin Quifiones, of lawful age, hereby certify that, on the 19 day of July
2021, I sent out via Priority Mail, from San Juan, PR, three (3) copies of the BRIEF
IN SUPPORT OF PETTITIONERS in the above-entitled case to the following

parties as well as the honorable Supreme Court of the United States.

ANIBAL ACEVEDO VILA

COUNSEL FOR AMICUS CURIE

LAW OFFICE OF ACEVEDO-VILA

894 MUNOZ RIVERA AVE, SUITE 202
San Juan, P.R. 00927

(787) 200-0676
acevedovilal@gmail.com

  

equinomés@qaclaw.com
Service List for No. 20-1735 (Senate of Puerto Rico Amicus Brief)
Counsel for Petitioners

John Michael Connolly, Counsel of Record
Consovoy McCarthy PLLC

1600 Wilson Blvd

Suite 700

Arlington, VA 22209

703-243-9423

mike@consovoymecarthy.com

Party name: Angel Manuel Ortiz-Diaz, et al.

Counsel for Respondents

Elizabeth B. Prelogar, Counsel of Record

Acting Solicitor General

United States Department of Justice 950 Pennsylvania Avenue,
NW Washington, DC 20530-0001 202-514-2217
SupremeCtBriefs@USDOJ.gov

Party name: United States, et al.
